Evaluation of Defense Installation Vulnerability Assessments
                                                                               May 23, 2006
       Who Should Read This Report and Why?
       This report should be read by military and civilian managers throughout the
       Department of Defense who have responsibility for developing, coordinating,
       or implementing policy or practices relating to organizing, resourcing, or
       assessing the Defense Critical Infrastructure Protection program. The report
       documents observations and recommendations of our program evaluation and
       summarizes resulting management actions.
       What Was Identified?
       Doctrine and organization changes driven by the Global War on Terrorism
       were incomplete. Protection and assurance concepts were disjointed, and
       coordination of associated programs could be improved. Through its Full
       Spectrum Integrated Vulnerability Assessment effort, the Office of the
       Assistant Secretary of Defense for Homeland Defense was attempting to
       address a significant part of this problem. This effort required coordination
       between multiple staff elements within the Office of the Secretary of Defense.
       How It Could Be Improved?
       We recommended that the Assistant Secretary of Defense for Homeland
       Defense should clearly decouple unique Defense Critical Infrastructure
       Protection efforts from Full Spectrum Integrated Vulnerability Assessment
       development. The success of the Defense Critical Infrastructure Protection
       program should not depend on a larger program integration effort.
       Progress Review.
       Our February 2005 briefing to the Assistant Secretary of Defense for
       Homeland Defense generated decisions and staff direction. As of November
       2005, the Office of the Assistant Secretary of Defense for Homeland Defense
       had improved many aspects of the Defense Critical Infrastructure Protection
       program. Our recommendations caused or influenced the following actions.
         •   The Joint Staff J3, Deputy Director for Antiterrorism and Homeland Defense
             proposed changing the definition of force protection to include all hazards.
             The Director, Defense CIP amended the definition of “mission assurance”
             and included it in DoD Directive 3020.40.
         •   Defense CIP program officials chose preparedness as the concept overarching
             mission assurance and force protection. Acceptance of mission assurance as
             a complementary concept to force protection was increasing. The National
             Guard and the Defense Contract Management Agency demonstrated
             significant progress assessing non-DoD critical assets. Program officials
             worked with other OSD offices to realign responsibilities to reduce identified
             gaps and overlaps.
         •   The Assistant Secretary of Defense for Homeland Defense needed to
             complete the development of program policy and assessment standards that
             address all assets critical to DoD missions.
         •   The Assistant Secretary of Defense for Homeland Defense published interim
             threat, vulnerability, and criticality standards. His Principal Deputy
             established a field activity combining program management for Continuity of
             Operations, Continuity of Government, and Defense CIP.
         •   The Assistant Secretary of Defense for Homeland Defense actively pursued
             implementation funding and controlled Defense CIP funding within the
             Program Operating Memorandum in a discrete program element.
       Much remains to be done as the program matures and continues to change in
       response to current events.

                                    Office of the Inspector General of the Department of Defense
                                                                         Report No. IE-2005-001
GENERAL INFORMATION

Forward questions or comments concerning the evaluation of Defense Installation Vulnerability
Assessments and other activities conducted by the Inspections & Evaluations Directorate to:

                                Inspections & Evaluations Directorate
                   Office of the Deputy Inspector General for Policy & Oversight
                     Office of Inspector General of the Department of Defense
                                        400 Army Navy Drive
                                   Arlington, Virginia 22202-4704
                                       crystalfocus@dodig.mil

An overview of the Department of Defense Office of Inspector General mission and
organizational structure is available at http://www.dodig.mil.


TO REPORT FRAUD, WASTE, AND ABUSE

Contact the DoD OIG Hotline by telephone at (800) 424-9098, by e-mail at hotline@dodig.mil
or in writing:

                                     Defense Hotline
                                     The Pentagon
                                     Washington, D.C. 20301-1900


REPORT TRANSMITTAL

We are providing this report for information and use. We considered management comments to
our findings in preparing this final report. Assistant Secretary of Defense for Homeland Defense
comments conformed to the requirements of DoD Directive 7650.3, “Follow-up on General
Accounting Office (GAO), DoD Inspector General (DoD IG), and Internal Audit Reports,”
June 3, 2004; therefore, additional comments are not required.

We also forwarded this report, as required by DoD Directive 7650.3, to the Audit Followup
Directorate. The evaluation team included the results of a progress review in this report. We
considered management actions acceptable and all recommendations closed. We did not request
additional action.



                                                   Wm Brem Morrison, III
                                                   Assistant Inspector General
                                                    for Inspections and Evaluations
                              TABLE OF CONTENTS

Executive Summary                                                                 1
Introduction
      Background                                                            5
      Objective                                                             6
      Early Implementation Review                                           6
Program Evaluation
      Issue 1.   Definition Changes                                          8
      Issue 2.   Program Responsibilities                                   11
      Issue 3.   Assessment Standards                                       15
      Issue 4.   Program Roles                                              18
      Issue 5.   Program Funding                                            21
Evaluation Response to Management Comments                                       23
Progress Review                                                                  24



                                   List of Appendixes

A.    Methodology                                                                28
B.    Briefing to the Assistant Secretary of Defense for Homeland Defense        30
C.    Management Comments                                                        42
D.    Acronym List                                                               48
E.    Report Distribution                                                        49
This Page Intentionally Left Blank
Executive Summary
Defense Installation Vulnerability Assessments
     Background: In response to terrorist events, potential threats, and the increasing
     reliance on evolving information infrastructure, the Administration established a
     commission on national CIP in July 1996. The attacks of September 11, 2001 caused a
     major programmatic shift toward the protection of physical assets, especially in the
     continental United States (CONUS). At the national level, Congress established the
     Department of Homeland Security and assigned responsibility for national CIP to the new
     department. Homeland Security Presidential Directive 7 outlined the national CIP
     program and tasked DoD with responsibility for the Defense Industrial Base. The
     Secretary of Defense established U.S. Northern Command in February 2003 and the
     Office of the ASD(HD) in May 2003. In September 2003, the Deputy Secretary of
     Defense transferred Defense CIP oversight to the ASD(HD). While making significant
     changes to the program, the ASD(HD) recognized the value of an independent review
     and requested this evaluation. We initiated this project on June 17, 2004.
     Evaluation Objective: Our objective was to evaluate policy and process for performing
     vulnerability assessments associated with Defense CIP, to include the Defense Industrial
     Base. Specifically we:
        • evaluated proposed Defense CIP policy and program organization for Defense
            and non-Defense assets; and
         • reviewed the effectiveness of the conduct of vulnerability assessments of Defense
            activities.
     Early Implementation Review: In this review we assessed vulnerabilities, challenges,
     and successes of a new          Figure 1. Project Timeline
     program during the start-up                                Program Evaluation                          Progress Review
     period. The Office of the
     Assistant Secretary of Defense Project        Project                   Brief to the Final Issue Paper              Publish
                                                                                                            Start  End
     for Homeland Defense           Request         Start                     ASD(HD)        Transmitted                 Report


     [ASD(HD)] was a new office                                   Research / Data Collection / Analysis       Production       Fieldwork       Production

     having recently received
     responsibility for Defense      Jan 04        Jun 04
                                                       1         2
                                                                               Feb 05            Jul 05
                                                                                                          3
                                                                                                           Oct 05 Nov 05 Mar 06
                                                                                                                           4   5           6                7
     Critical Infrastructure
                                          Assistant Secretary of Defense for Homeland Defense requested the project.
                                                      1
     Protection (CIP). Our priority       Program Evaluation started based on the availability of resources.
                                                      2

                                          We briefed program evaluation results to the Assistant Secretary (requestor).
                                                      3
     for this review was to provide       We provided Issue papers to program management as we completed them.
                                                      4

     timely findings and                              5
                                          We began the progress review.
                                                      6
                                          We completed data collection on program progress.
     recommendations focused on                       7
                                          We distributed program evaluation and progress review results.
     overall program effectiveness.
     Context: This report collates products provided directly to officials with responsibility
     for the Defense CIP program. We conducted the review in two primary phases (Program
     Evaluation and Progress Review) as shown in Figure 1.



                                                             1
    We provided a summary of our program evaluation findings to the ASD(HD) on
    February 17, 2005. Subsequently, we provided the Director, Defense CIP with a detailed
    discussion of each identified issue and our recommendations. We began the progress
    review in October 2005 after allowing 8 months for Defense CIP officials to implement
    our recommendations. Our results are presented in the Progress Review section.


Program Evaluation Results
    Observations: During our fieldwork, we determined that program managers within the
    Office of the ASD(HD) established strategic goals for the Defense CIP program. These
    goals were:
       •   to make available Defense critical infrastructure as required;
       •   to identify, prioritize, assess, and assure that Defense critical infrastructure is
           managed as a comprehensive program;
       •   to remediate or mitigate, based on risk, vulnerabilities found in Defense critical
           infrastructure; and
       •   to ensure Defense CIP will complement other DoD programs and efforts.
    In addition, program managers within the Office of the ASD(HD) had taken actions to
    improve the program. They:
       •   published program strategy, prepared draft policy, and conducted program
           assessments and gap analyses;
       •   increased staffing, reorganized responsibilities, and actively engaged stakeholders
           on multiple levels;
       •   proposed strategic concepts, developed common program definitions, and pursued
           systemic solutions; and
       •   gained control over program funding and recognized the need for continued
           advocacy within the planning, programming, budgeting, and execution system.
    Based on our review of documentation and interviews with responsible officials, we
    identified five areas of stress in the program.
       •   Asset Location: DoD owned, used, and relied on assets located both within and
           outside the United States. Overseas presence and operations created bureaucratic
           and jurisdictional gaps and overlaps.
       •   Asset Ownership: DoD owned significant assets, but was dependent on many
           outside its control. Success of Department operations relied on other government
           agencies, the Defense Industrial Base, and assets owned by host nations.
       •   Program Nexus: The Services, combatant commands, and Defense sectors all had
           a different focus. The Services focused on assets they owned, primarily their
           installations. Combatant commanders focused on warfighting assets, primarily
           equipment and supplies. Lead agencies for the Defense sectors concentrated on a
           narrow range of nonwarfighting assets. Non-DoD assets received insufficient
           attention.



                                             2
    •    Program Participation: Legal issues surrounding implementation of Defense CIP
         at non-DoD organizations were not resolved. In addition, the role of the National
         Guard was unclear.
    •    Threats Addressed: Policy developed over time addressed the human threat,
         primarily in response to terrorist events including the bombing of Khobar Towers,
         the U.S.S. Cole, and the attacks of 9/11. However, as evidenced by the impacts of
         Hurricane Katrina, nonterrorist events can equal or exceed man-made impacts.
Figure 2 illustrates the
Defense CIP asset
universe. The                                                                     Asset Location
multicolored field                                                         CONUS                      OCONUS
proportionally                                      I                      ASD(HD)
                                                                                                             II
represents all assets
                                                                  Key National Assets
requiring Defense CIP
criticality assessment,                                                         NON-DOD ASSETS
                                 ASSURANCE
                                 Program




                                                          Defense Industrial Base
organized by asset                (Joint Readiness)
                                Combatant Commands                                    Defense Sectors
ownership. The field is
                                                      National Guard
proportionally divided                                Defense Nonwarfighting Assets
into four quadrants:                                  Joint

vertically by                    PROTECTION Army                                    DOD ASSETS
                                  (Unit Readiness)    Navy
geographic location and                Services       Marine Corps
                                                      Air Force
horizontally by                                   IV                                                         III
predominant CIP-
related readiness                                 Figure 2. Defense CIP Asset Universe
activity. In quadrants I
and II, shading from dark to light reflects policy and implementation gaps, where white
represents the absence of coverage. Assurance programs, including Defense CIP, are less
developed. As shown in quadrants III and IV, protection programs provide relatively
comprehensive coverage of DoD warfighting assets, including Service- and Joint-owned
assets. Assurance program immaturity leaves gaps in the overall management of Defense
nonwarfighting assets and non-DoD assets, especially assets located outside the
continental United States (OCONUS).
Program Evaluation General Conclusion: Doctrine and organization changes were
incomplete. The fundamental concepts defining protection and assurance were
insufficiently developed and coordinated, and the division of roles and responsibilities
among associated programs could be improved. Through their Full Spectrum Integrated
Vulnerability Assessment effort, ASD(HD) attempted to address a significant part of this
problem. However, the effort required coordination and integration of programs under
the responsibility of multiple staff elements within the Office of the Secretary of Defense.
Program officials should clearly separate specific Defense CIP efforts from Full
Spectrum Integrated Vulnerability Assessment development.
Recommendations: We made six observations as a result of our evaluation, five of
which included recommendations for improvement. We made no recommendation
regarding our observation concerning stakeholder inclusion.


                                                  3
       •   Definitions. Responsible officials needed to update and complete definitions
           related to protection and assurance to incorporate current executive-level
           Homeland Security and CIP concepts.
       •   Responsibilities. The Office of the Under Secretary of Defense for Policy needed
           to reassign and modify protection and assurance program responsibilities to unify
           the programs under one overarching concept, increase attention to non-DoD
           assets critical to DoD missions, and rationalize the geographic overlap between
           subordinate offices.
       •   Assessment Standards. The ASD(HD) needed to complete the development of
           program policy and assessment standards that address all assets critical to DoD
           missions.
       •   Program Roles. The ASD(HD) needed to modify program responsibilities to
           include assigning the Joint Staff and combatant commanders management of
           warfighting assets and establishing a new Defense Field Activity to manage DoD
           nonwarfighting and non-DoD assets.
       •   Funding. The ASD(HD) needed to control program funding for program staff and
           support to stakeholders, obtain and allocate funding for vulnerability assessments,
           and advocate funding for mitigation of risk-based vulnerabilities.

Progress Review
    Results: We conducted a progress review from October through November 2005.
    ASD(HD) developed and improved many aspects of the Defense CIP program following
    our debrief in February 2005.
       •   Definitions. Defense CIP officials in the office of the ASD(HD) published
           definition changes in agreement with our recommendations within DoD Directive
           3020.40, but had not submitted changes for inclusion in Joint Publication 1-02.
       •   Responsibilities. Defense CIP program officials considered preparedness as the
           overarching concept for mission assurance and force protection. While
           acceptance of the concept of mission assurance was increasing, the Office of the
           Secretary of Defense had not yet fully accepted preparedness as the unifying
           construct.
       •   Assessment Standards. ASD(HD) had prepared draft guidance but still needed to
           develop consistent criticality methodology, threat communication processes, and
           vulnerability assessment standards for critical assets.
       •   Program Roles. ASD(HD) and the Defense Contract Management Agency had
           several ongoing initiatives addressing the Defense Industrial Base, but a lack of
           responsibility for assessment of non-DoD critical assets located OCONUS
           remained. The Principal Deputy Under Secretary of Defense for Policy approved
           the establishment of a field activity that will combine program management for
           Continuity of Operations, Continuity of Government, and Defense CIP.
       •   Funding. Finally, ASD(HD) established a program element to identify the
           Defense CIP implementation budget and planned to decentralize execution to the
           Services starting with the FY 2008 budget.


                                            4
Introduction
Background
    In response to terrorist events, including the bombing of the Khobar Towers, and the
    increasing reliance on evolving information infrastructure, the Administration established
    a commission on national Critical Infrastructure Protection in July 1996. Presidential
    Decision Directive No. 63, “Critical Infrastructure Protection” (PDD-63), May 22, 1998
    (PDD-63), defined critical infrastructure as “physical and cyber-based systems essential
    to the minimum functions of the economy and government.” PDD-63 also defined
    vulnerabilities, including “equipment failure, human error, weather and other natural
    causes, and physical and cyber attacks.”
    In response to PDD-63, DoD reissued DoD Directive 5160.54, “Critical Asset Assurance
    Program (CAAP),” January 20, 1998. DoD Directive 5160.54 expanded the requirement
    to identify, analyze, assess, and assure critical assets across the full range of military
    operations. However, the anticipated calendar year 2000 (Y2K) software problem
    focused national CIP program efforts during 1998 and 1999 on preventing cyber attacks
    to ensure the continuity and viability of critical information systems in the United States.
    DoD also reissued DoD Directive 2000.12, “DoD Antiterrorism/Force Protection
    (AT/FP) Program,” April 13, 1999. The language of DoD Directive 2000.12
    concentrated on the protection of personnel and reflected the prevalent attitude that
    terrorism occurred outside the United States.
    The attacks of September 11, 2001, caused a major programmatic shift toward the
    protection of physical assets, especially in the United States. At the national level,
    Congress established the Department of Homeland Security and assigned to that
    Department responsibility for national CIP. DoD was tasked specifically with
    responsibility for the Defense Industrial Base. Homeland Security Presidential
    Directive 7 outlined the national CIP program, and Directive 8 defined national
    preparedness. The Secretary of Defense established U.S. Northern Command in
    February 2003 and assigned it responsibility for force protection in CONUS. The
    Secretary of Defense established ASD(HD) in May 2003.
    In September 2003, the Deputy Secretary of Defense transferred responsibility for
    Defense CIP oversight to the ASD(HD). Figure 2 below illustrates the location of
    Defense CIP in the Office of the Secretary of Defense. As of November 2005, Defense
    CIP was one of six programs under the responsibility of the Deputy Assistant Secretary
    of Defense for Force Planning and Employment. The Director, Defense CIP divided
    program responsibility among three deputies: Strategy and Policy, Operations, and
    Enterprise Architecture.
    In September 2003, the Deputy Secretary of Defense realigned oversight of the Defense
    Critical Infrastructure Protection (CIP) Program to the Assistant Secretary of Defense for
    Homeland Defense (ASD[HD]). ASD(HD) primary Defense CIP responsibilities are to
        • act as the principal staff assistant and civilian advisor to the Secretary;
        • represent DoD with the Department of Homeland Security;


                                              5
         •       prepare and present budget submissions to the Office of the Secretary of Defense
                 (OSD);
         •       represent DoD before the U.S. Congress; and
         •       develop analytical standards and procedures to ensure effective analyses and
                 assessments.
     Figure 2. Defense CIP Organization


                                                                       SECDEF

     Under                Acquisition,               Personnel                                 Comptroller /
     Secretaries          Technology,                    &                   Policy           Chief Financial         Intelligence
     Of Defense           & Logistics                Readiness                                    Officer


     Assistant                Special Operations /        International                                           International
     Secretaries                                                                        Homeland
                                 Low Intensity              Security                                                Security
     of Defense                                                                          Defense
                                   Conflict                  Affairs                                                  Policy



     Deputy Assistant                                        Security                  Force Planning           Strategy, Plans,
     Secretaries of Defense                                Coordination               and Employment            and Resources



                                                             Domestic                 Critical             Domestic
                                                           Civil Support          Infrastructure          Combating
                                                              Domain                Protection            Terrorism
     Directors

                                                                           Domestic            Domestic            Domestic
                                                                           Defense               WMD             Special Events
                                                                            Domain              Domain             Terrorism




Objective
    The ASD(HD) requested the Inspector General review implementation of the analytical
    standards and procedures. We initiated this project on June 17, 2004. Our overall
    objective was to evaluate policy and processes for performing vulnerability assessments
    associated with Defense CIP, to include the Defense Industrial Base. Specifically, we:
        • evaluated proposed Defense CIP policy and program organization for Defense
            and non-Defense assets; and
        • reviewed the effectiveness of the conduct of vulnerability assessments of Defense
            activities.

Early Implementation Review
    We define an early implementation review as a study that assesses vulnerabilities,
    challenges, and successes of a new initiative or program during the start-up period.
    Although Defense CIP was not a new program, ASD(HD) was a new office that had
    recently received responsibility for the program. Program officials were new to their
    responsibilities and were making significant changes. Our priority for this review was to
    provide timely findings and recommendations focused on overall program effectiveness.




                                                                 6
The remaining sections of this report collate the products provided directly to officials
with responsibility for the Defense CIP program. We conducted the review in two
primary phases (Program Evaluation and Progress Review) as shown in Figure 1.

Figure 1. Project Timeline

                             Program Evaluation                                          Progress Review


Project       Project                              Brief to the Final Issue Paper                                  Publish
                                                                                  Start           End
Request        Start                                ASD(HD)        Transmitted                                     Report


                  Research / Data Collection / Analysis           Production               Fieldwork       Production



Jan 04        Jun 04                                  Feb 05                   Jul 05   Oct 05   Nov 05            Mar 06
   1             2                                            3                  4        5            6                7


  1    Assistant Secretary of Defense for Homeland Defense requested the project.
  2    Program Evaluation started based on the availability of resources.
  3    We briefed program evaluation results to the Assistant Secretary (requestor).
  4    We provided Issue papers to program management as we completed them.
  5    We began the progress review.
  6    We completed data collection on program progress.
  7    We distributed program evaluation and progress review results.



We conducted fieldwork for the program evaluation from June 2004 through February
2005. The objective of the evaluation was to assess policy and process for performing
vulnerability assessments associated with Defense CIP. We provided a summary of our
findings to the ASD(HD) on February 17, 2005 (see Appendix B). This was our primary
product for the program evaluation phase. During the briefing we provided the
ASD(HD) with five opportunities for program improvement and an overarching
recommendation designed to provide sufficient information for executive decisions.
Subsequently, we provided the Director, Defense CIP with a detailed discussion of each
identified issue including our recommendations. One issue did not include
recommendations; therefore, we provided no additional information beyond the briefing.
We began the progress review in October 2005, after allowing 8 months for Defense CIP
officials to implement our recommendations. The progress review was designed to
evaluate the value of our recommendations to program management, determine their
implementation, and ascertain significant program changes. We interviewed Defense
CIP program officials, the ASD(HD) Comptroller, and representatives with Defense CIP
program responsibility in the Joint Staff and Defense Contract Management Agency.
Our results are presented in the Progress Review section.




                                                          7
This Page Intentionally Left Blank




                8
       Evaluation of Defense Installation Vulnerability Assessments
                                                                                               Product 1 of 5

A Crystal Focus Review



            Issue 1. Definition Changes
                         The addition of the continental United States (CONUS) as a significant
                         element to the Global War on Terrorism necessitated changes to DoD
                         policy and organization. Attempts to establish policy, assign
                         responsibility, and develop programs were hindered by the lack of
                         generally accepted terminology to describe underlying concepts.


                                                  Discussion
                         The attacks of September 11, 2001, shifted the focus for prevention of
                         further terrorist attacks to the homeland, and generated significant
                         organizational change in the Federal Government. Homeland Security
                         Presidential Directive No. 8, “National Preparedness,” December 17,
                         2003, defines all-hazards preparedness and establishes a national
                         domestic all-hazards preparedness goal. Directive No. 8 equates
                         preparedness with readiness for the national program. Priorities within
                         both the National and Defense CIP programs also shifted: although the
                         security of cyber systems remained important, attention to the protection
                         of physical assets increased. The two terms used by DoD to define the
                         primary activities associated with Defense CIP, force protection and
                         mission assurance, do not encompass all critical assets and potential
                         threats.
                         As of February 2005, Joint Publication 1-02, “The DoD Dictionary of
                         Military and Associated Terms,” (JP 1-02) defined force protection as:
                                Actions taken to prevent or mitigate hostile actions against
                                Department of Defense personnel (to include family members),
                                resources, facilities, and critical information. These actions conserve
                                the force’s fighting potential so it can be applied at the decisive time
                                and place and incorporate the coordinated and synchronized
                                offensive and defensive measures to enable the effective
                                employment of the joint force while degrading opportunities for the
                                enemy. Force protection does not include actions to defeat the enemy
                                or protect against accidents, weather, or disease.
                         That definition does not address all aspects of CIP. The definition implies
                         defensive action, is applicable only to DoD assets, and excludes important
                         categories of threats. Effective CIP requires responsible officials to
                         identify and protect all assets that allow them to perform essential
                         missions, not just assets under their control.
                         In addition, comprehensive force protection should address a greater range
                         of threats. Directive No. 8 adopts an all-hazards approach, and Defense
                         CIP policy recognizes all hazards. The impact of multiple hurricanes in

                                                             9
       Evaluation of Defense Installation Vulnerability Assessments
                                                                                               Product 1 of 5

A Crystal Focus Review



                         Florida and the earthquake and tsunami in the Indian Ocean in 2004
                         demonstrate the need for the all-hazards approach.
                         The term mission assurance is not listed in JP 1-02. In draft DoD
                         Directive 3020.ff, “Defense Critical Infrastructure Program (DCIP),”
                         October 2004, the Office of the Assistant Secretary of Defense for
                         Homeland Defense proposed to define mission assurance as:
                                A process to ensure that assigned tasks or duties can be performed in
                                accordance with the intended purpose or plan. It is a summation of
                                the activities and measures taken to ensure that required capabilities
                                and all supporting infrastructures are available to the DoD to carry
                                out the National Military Strategy. It links numerous risk
                                management program activities and security related functions—such
                                as force protection; antiterrorism; critical infrastructure protection;
                                information assurance; continuity of operations; chemical,
                                biological, radiological, nuclear, and high-explosive defense;
                                readiness; and installation preparedness—to create the synergistic
                                effect required for DoD to mobilize, deploy, support, and sustain
                                military operations throughout the continuum of operations.
                         The language of the draft is confusing, describing mission assurance
                         alternately as an activity leading to readiness and as a necessary state for
                         successful military operations. It lists readiness as a complementary or
                         subordinate risk management or security-related function. However, DoD
                         Directive 5160.54, “Critical Asset Assurance Program (CAAP),” January
                         20, 1998, clearly defines assurance as an activity. The proposed addition
                         of the term mission, which has its own definition in JP 1-02, adds no value
                         to the concept of assurance.
                         Even though the definition of force protection includes personnel,
                         resources, facilities, and critical information, in general, force protection
                         activities focus on personnel. For example, DoD Directive 2000.12, “DoD
                         Antiterrorism (AT) Program,” August 18, 2003, states that an explicit goal
                         of the antiterrorism program is the protection of DoD elements and
                         personnel. That program is one activity that addresses aspects of force
                         protection. Also, DoD Instruction 2000.16, “DoD Antiterrorism
                         Standards,” June 14, 2001, specifically limits higher headquarters
                         vulnerability assessments to installations with “300 or more personnel on a
                         daily basis.” The instruction allows for vulnerability assessments at any
                         DoD facility if the appropriate commander identifies a need.
                         Antiterrorism policy should require assessments at facilities that are
                         deemed critical under CIP standards, regardless of the number of
                         personnel impacted, to help integrate activities and mitigate risk.




                                                             10
       Evaluation of Defense Installation Vulnerability Assessments
                                                                                         Product 1 of 5

A Crystal Focus Review




                                                  Impact
                         CIP program managers have been unable to complete coordination and
                         publication of program policies. The lack of concise or generally accepted
                         terminology describing concepts and doctrine has caused several
                         stakeholders to nonconcur with draft directives. Obsolete or missing DoD
                         policy hindered program implementation and execution, and made funding
                         difficult to obtain. Clear definitions and concepts will allow for efficient
                         distribution of program responsibilities and help prevent overlaps and gaps
                         in protection and assurance activities.


                                           Recommendations
                         We recommended the Assistant Secretary of Defense for Homeland
                         Defense should:
                            1. Request that the Director for Operational Plans and Joint Force
                            Development, Joint Staff amend the term Force Protection in Joint
                            Publication 1-02, “The DoD Dictionary of Military and Associated
                            Terms,” by deleting the word force and including an all-hazards
                            component within that definition to ensure consistency with the intent
                            of Homeland Security Presidential Directive No. 8.
                            2. Amend the term mission assurance in DoD Directive 3020.ff,
                            “Defense Critical Infrastructure Program (DCIP),” October 2004, by
                            deleting the word mission, and refining the definition to include
                            specific policy considerations as set forth in DoD Directive 5160.54,
                            “Critical Asset Assurance Program (CAAP),” January 20, 1998.
                            3. Request that the Director for Operational Plans and Joint Force
                            Development, Joint Staff include the revised assurance definition in
                            Joint Publication 1-02, “The DoD Dictionary of Military and
                            Associated Terms.”




                                                          11
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                                   Product 2 of 5

A Crystal Focus Review



            Issue 2. Program Responsibilities
                         DoD preparedness concepts, including Defense CIP, were disjointed, and
                         associated programs were inadequately coordinated.


                                                   Discussion
                         Homeland Security Presidential Directive No. 8, “National Preparedness,”
                         December 17, 2003, requires a national domestic all-hazards preparedness
                         goal. Directive No. 8 defines all-hazards preparedness, and equates
                         preparedness with readiness for the national program.
                         As of March 2005, Joint Publication 1-02, “The DoD Dictionary of
                         Military and Associated Terms,” (JP 1-02) defines readiness as:
                                The ability of US military forces to fight and meet the demands of the
                                national military strategy. Readiness is the synthesis of two distinct but
                                interrelated levels. a. unit readiness - The ability to provide capabilities
                                required by the combatant commanders to execute their assigned
                                missions. This is derived from the ability of each unit to deliver the
                                outputs for which it was designed. b. joint readiness - The combatant
                                commander’s ability to integrate and synchronize ready combat and
                                support forces to execute his or her assigned missions.
                         Under this definition, all activities conducted by DoD components, other
                         than Operations, contributed to readiness. General examples of these
                         activities include acquisition, staffing, training, and logistical support.
                         However, the two specific CIP activities contributing to readiness are
                         protection and assurance.
                         Protection, which is defined in JP 1-02 as force protection, is an activity
                         associated with unit readiness. As defined, protection actions are limited
                         to the protection of DoD assets. Those actions seek to “preserve the
                         force’s fighting potential;” hence, these actions are generally defensive in
                         nature. Assurance, defined in DoD Directive 5160.54, “Critical Asset
                         Assurance Program (CAAP),” January 20, 1998, and draft DoD Directive
                         3020.ff, “Defense Critical Infrastructure Program (DCIP),” October 13,
                         2004, is an activity associated with joint readiness. Assurance actions are
                         broader, designed to “ensure that required capabilities and all supporting
                         structures are available to the DoD to carry out the National Military
                         Strategy.” Protection and assurance activities are complementary, and
                         both contribute to different facets of readiness.
                         Civilian directors and military commanders at all levels performed
                         protection and assurance activities through a variety of programs.
                         However, responsibility for programs, as well as underlying protection


                                                               12
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                                   Product 2 of 5

A Crystal Focus Review



                         and assurance concepts, was spread across multiple Under and Assistant
                         Secretaries of Defense, as shown in Table 1.
                     Table 1. Protection and Assurance Program Responsibility

                          PROGRAM                     RESPONSIBLE OFFICE           COMMENTS
                          PROTECTION
                            Antiterrorism                  ASD(SO/LIC)
                            Chemical, Biological,          ATSD(NCB),              ATSD(NCB) responsible for
                            Radiological,                  USD(AT&L),              Chemical, Biological, and
                            Nuclear, and High-             ASD(SO/LIC)             Nuclear policy.
                            Explosives                                             Responsibility for radiological
                                                                                   policy divided.
                                                                                   Department of Defense
                                                                                   Explosive Safety Board
                                                                                   published conventional
                                                                                   explosives standards.
                                                                                   ASD(SO/LIC) drafting policy
                                                                                   for emergency response.
                            Physical Security                USD(I)
                            Installation              ASD(SO/LIC), ASD(HD),        ASD(SO/LIC) drafting policy.
                            Preparedness                   USD(AT&L)               ASD(HD) published the
                                                                                   September 2003 report to
                                                                                   Congress.
                                                                                   USD(AT&L) responsible for the
                                                                                   Joint Service Installation
                                                                                   Preparedness Pilot and
                                                                                   Unconventional Nuclear
                                                                                   Warfare Defense programs.
                          ASSURANCE
                            Continuity of                      USD(P)
                            Operations,
                            Continuity of
                            Government
                            Information                       ASD(NII)
                            Assurance
                            Critical Infrastructure           ASD(HD)
                            Protection
                          ACRONYM LIST
                          ASD(NII)          Assistant Secretary of Defense for Network Information and Integration
                          ASD(SO/LIC)       Assistant Secretary of Defense for Special Operations and Low Intensity
                                             Conflict
                          ATSD(NCB)         Assistant to the Secretary of Defense for Nuclear, Chemical, and
                                             Biological Defense Programs
                          USD(AT&L)         Under Secretary of Defense for Acquisition, Technology and Logistics
                          USD(I)            Under Secretary of Defense for Intelligence
                          USD(P)            Under Secretary of Defense for Policy




                                                               13
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                         Product 2 of 5

A Crystal Focus Review



                         Prior to September 11, 2001, no significant CONUS threat had been
                         identified, and DoD focused protection and assurance activities OCONUS.
                         The increased efforts for homeland security added a geographic element to
                         the division of protection and assurance responsibilities. As of February
                         2005, the charter document outlining authorities and assigning
                         responsibilities to the Office of the ASD(HD) remained in draft.
                         However, the ASD(HD) defined his responsibility as the defense of “U.S.
                         sovereignty, territory, domestic population, and critical infrastructure.”
                         Protection and assurance program responsibility was not realigned to
                         match geographic limitations. ASD(HD) had global responsibility for
                         Defense CIP, but had no direct responsibility for protection programs in
                         CONUS. Effective CIP involves the assurance of all assets, both civilian
                         and military, necessary to project, support, and sustain military forces
                         worldwide.
                         The geographic division of responsibility is not unique to protection and
                         assurance programs. For example, environmental legislation has limited
                         extraterritorial application. In response, DoD developed effective parallel
                         policy based on consistent environmental standards for use in CONUS and
                         OCONUS. However, coordinating this effort was simplified because the
                         Deputy Under Secretary of Defense for Installations and Environment has
                         policy responsibility for the entire environmental program.


                                                  Impact
                         Disjointed and overlapping protection and assurance concepts resulted in
                         inefficient implementation and unclear responsibility for the protection of
                         assets. Program officials continued to expend time and effort attempting
                         to agree on definitions, thus delaying the deployment of program
                         capabilities. The ultimate result was the diffusion of civilian
                         responsibility and confused authority. Without clear assignment of
                         responsibilities, asset owners receive conflicting guidance, multiple
                         assessments of assets, and uncoordinated funding for mitigation efforts.


                                           Recommendations
                         We recommended the Office of the Under Secretary of Defense for Policy
                         should:
                         1. Organize Protection and Assurance programs and initiatives under a
                         common overarching concept to rationalize efforts toward all-hazards
                         preparedness.



                                                          14
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                      Product 2 of 5

A Crystal Focus Review



                         2. Complete DoD Directive 5111.13, “Assistant Secretary of Defense for
                         Homeland Defense” and amend DoD Directive 5111.10, “Assistant
                         Secretary of Defense for Special Operations and Low-Intensity Conflict
                         (ASD(SO/LIC)),” March 22, 1995, to reflect a geographic division of
                         responsibility for Protection and Assurance policy and programs.
                         CONUS, Alaska, Hawaii, and U.S. Territories and Protectorates should be
                         assigned to the Assistant Secretary of Defense for Homeland Defense, and
                         OCONUS should be assigned to the Assistant Secretary of Defense for
                         Special Operations and Low-Intensity Conflict.




                                                         15
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                              Product 3 of 5

A Crystal Focus Review



            Issue 3. Assessment Standards
                         As of February 2005, the Defense CIP program did not provide sufficient
                         deployed capabilities. In addition, prioritizing efforts and applying
                         program resources were not optimized to address nonwarfighting critical
                         assets.


                                                 Discussion
                         Draft DoD Directive 3020.ff, “Defense Critical Infrastructure Program
                         (DCIP),” October 13, 2004, defines Defense CIP as “a risk-based DoD
                         program that seeks to assure the availability of infrastructures critical to
                         DoD missions.” It states that DoD will achieve this goal by identification,
                         assessment, and security enhancement of assets essential for executing the
                         National Military Strategy. As of February 2005, comprehensive
                         assessment standards were incomplete, integrated assessments were not
                         being performed, and program efforts assessing nonwarfighting assets
                         were insufficient.
                         At the request of Defense CIP program officials, the Defense Program
                         Office for Mission Assurance (DPO-MA) published the “Defense Critical
                         Infrastructure Program: Full Spectrum Integrated Vulnerability
                         Assessment Program Concept of Operations, Version 1.0,” which states:
                                This Concept of Operations (CONOPS) addresses the need for a
                                Defense-wide, comprehensive, integrated, repeatable, and sustainable
                                vulnerability assessment process in accordance with Defense Critical
                                Infrastructure Program (DCIP) policy, as stated in draft DoD Directive
                                (DoDD) 3020.ff. To accomplish this, the document outlines the
                                functions and processes of the DCIP Full Spectrum Vulnerability
                                Assessment Program and the organizations within DoD responsible for
                                establishing and ensuring such assessments.
                         The document fails to identify the organizations responsible for
                         conducting vulnerability assessments, stating only that assessment
                         organizations must coordinate and execute Defense CIP Full Spectrum
                         Integrated Vulnerability Assessment program requirements in accordance
                         with this Concept of Operations and other applicable documentation.
                         In July 2004, DPO-MA published the “Full Spectrum Integrated
                         Vulnerability Assessment Program Team Standards, Version 1.0,”
                         containing standards in 12 areas of concern. In the scope section, DPO-
                         MA stated that the standards were applicable to “the assessment of all
                         DoD critical assets, including non-DoD Federally-owned or leased critical
                         assets and commercial critical assets that support the DoD mission.”



                                                             16
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                          Product 3 of 5

A Crystal Focus Review



                         The document was predominantly a compendium of then-current
                         standards for assessing DoD assets. For example, the standards for
                         assessing continuity of operations in the Plans area of concern and outer
                         perimeter security in the Physical Security area of concern were derived
                         from current standards applicable to Federal facilities. In two other areas
                         of concern, Supporting Infrastructure Networks and Availability of
                         Supporting Material and Services, DPO-MA established standards to
                         determine vulnerability based on standards applicable to both Federal and
                         non-Federal facilities. Further, the criteria were not designed to determine
                         interdependency among critical assets, a vital Defense CIP concept.
                         Inspectors using the standards as a guide will likely perform CIP
                         assessments of critical DoD assets identical to and duplicative of other
                         protection and assurance assessments. Moreover, inspectors will have
                         difficulty conducting assessments on non-DoD assets because of lack of
                         ownership and access.
                         As of March 2005, DPO-MA was still conducting pilot vulnerability
                         assessments. These tests ran concurrently with Joint Service Integrated
                         Vulnerability Assessments and Balanced Survivability Assessments, both
                         conducted by the Defense Threat Reduction Agency as part of the
                         antiterrorism program. DPO-MA intended the pilot assessments as tests
                         of Full Spectrum Integrated Vulnerability Assessment protocols. They
                         focused their efforts on integrating existing assessments and eliminating
                         overlaps.
                         DPO-MA conducted 11 assessments in FY 2004 and Defense CIP
                         program management planned 6 during FY 2005. All assessments were of
                         DoD-owned facilities. Consequently DPO-MA did not examine critical
                         National Guard or non-DoD assets. DoD warfighting assets on military
                         installations were protected to a higher standard and assessed under
                         multiple protection and assurance programs. The Defense CIP assessment
                         plan did not address non-DoD assets, the areas of greatest weakness.
                         Defense CIP program officials accomplished significant progress in
                         conducting DoD assessments, but applied insufficient attention to the
                         specified mission of protecting the Defense Industrial Base. Homeland
                         Security Presidential Directive No. 7 explicitly assigns responsibility to
                         DoD for protection of the Defense Industrial Base. DoDD 3020.ff assigns
                         the Defense Contract Management Agency as the lead agency for
                         protection of the Defense Industrial Base within DoD. As of February
                         2005, CIP program responsibility within Defense Contract Management
                         Agency was an additional duty performed at a relatively junior level.
                         Further, according to senior officials, the Joint Staff assigned low priority
                         to the protection of nonwarfighting critical assets.



                                                           17
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                        Product 3 of 5

A Crystal Focus Review




                                                  Impact
                         The Defense CIP program did not adequately identify and protect
                         infrastructures deemed critical for national security. Specifically, DoD’s
                         vulnerability to an event disrupting critical DoD nonwarfighting and non-
                         DoD assets remained unknown. The mission impacts remain unidentified
                         as well. More complete assessments are needed to effect appropriate
                         prioritization and funding.
                         In addition, program management’s inability to adequately define and
                         assign assessment responsibilities created duplication of effort and
                         confusion at installations receiving multiple findings and reports.


                                           Recommendations
                         We recommended the Assistant Secretary of Defense for Homeland
                         Defense should:
                            1. Complete Defense CIP assessment standards for non-DoD assets
                            and unique CIP standards for DoD assets.
                            2. Integrate Defense CIP assessments that review non-DoD assets
                            with assessments conducted on DoD assets.
                            3. Coordinate and fund “expert type” assessments for vital strategic
                            DoD and non-DoD national assets.
                            4. Refocus CIP program activities to assure the availability of DoD
                            nonwarfighting, National Guard, and non-DoD assets critical to DoD
                            missions.




                                                          18
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                                Product 4 of 5

A Crystal Focus Review



            Issue 4. Program Roles
                         Defense CIP program organization was inadequate to achieve desired
                         homeland defense strategic objectives.


                                                  Discussion
                         Homeland defense objectives relating to Defense CIP are outlined in three
                         documents. First, Homeland Security Presidential Directive No. 7,
                         “Critical Infrastructure Identification, Prioritization, and Protection,”
                         December 17, 2003, tasks all Federal departments to “identify, prioritize,
                         and coordinate the protection of critical infrastructure and key resources in
                         order to prevent, deter, and mitigate the effects of deliberate efforts to
                         destroy, incapacitate, or exploit them.” Second, draft DoD Directive
                         3020.ff states program objectives which include:
                                The identification, prioritization, assessment, and assurance of Defense
                                Critical Infrastructures … managed as a comprehensive program that
                                includes the development of adaptive plans and procedures to: mitigate
                                risk, restore capability in the event of loss or degradation, support
                                incident management, and protect related information.
                         DoD Directive 3020.ff also defines critical infrastructures to include
                         essential DoD and non-DoD assets worldwide. Third, in “DoD Strategy
                         for Homeland Defense and Civil Support (Coordinating Draft),”
                         September 13, 2004, the ASD(HD) listed DoD objectives and core
                         capabilities for protecting the U.S. from attack. According to this strategy,
                         an effective Defense CIP program must “implement a protective risk
                         management strategy for defense critical infrastructure” and “conduct
                         protection operations for designated national critical infrastructure.” Once
                         fully capable, the Defense CIP program will contribute to the objective of
                         providing mission assurance.
                         The Director of Defense CIP has program responsibility within the office
                         of the ASD(HD). The Director is responsible for developing and
                         overseeing implementation of policy for worldwide identification,
                         prioritization, assessment, remediation, and protection of critical
                         infrastructure. However, the ASD(HD) area of responsibility was limited
                         to the United States, Territories, and the approaches. Prior to the
                         establishment of the Homeland Defense office, the Assistant Secretary of
                         Defense for Special Operations and Low-Intensity Conflict was
                         responsible for policy and advice on the use of U.S. Government resources
                         in counterterrorism and antiterrorism. The responsibility of the Assistant
                         Secretary of Defense for Special Operations and Low-Intensity Conflict
                         was not geographically limited. Reaching consensus on the division of


                                                             19
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                           Product 4 of 5

A Crystal Focus Review



                         responsibilities took time and absorbed effort that management could have
                         applied to developing program capabilities.
                         As of February 2005, Defense CIP program officials were using the
                         Defense Program Office for Mission Assurance for a wide variety of
                         program management tasks. However, in October 2004, program officials
                         proposed realigning Defense Program Office for Mission Assurance
                         support and reducing staffing from 219 to 117 positions. The same
                         proposal recommended supporting each of the 10 Defense sectors
                         identified in DoD Directive 3020.ff with 3 full-time staff, a significant
                         improvement. For example, as of September 2004, the Defense CIP
                         working group responsible for the Defense Industrial Base identified over
                         1000 important and over 150 critical facilities, excluding overseas
                         installations. The sector lead agency, the Defense Contract Management
                         Agency, managed its own program using one GS-14 taken from existing
                         staff.
                         The system for conducting assessments to identify vulnerabilities,
                         prioritize impacts, and coordinate mitigation was in the initial phases of
                         development. Assessment standards and protocols, databases and tracking
                         tools, and mitigation activity prioritization were all in draft or test phase.
                         Defense CIP program officials understood the need for a coordinated
                         effort among protection and assurance programs involving multiple Under
                         and Assistant Secretaries of Defense. However, their efforts to coordinate
                         multiple programs detracted from the development of fundamental
                         program structure.
                         Efficient accomplishment of homeland defense strategic objectives
                         required coordination between protection and assurance programs.
                         Coordination should culminate in systems that ensure consolidated,
                         analyzed assessment information for all stakeholders. Different
                         assessment groups need to use a common data set representing the facility
                         or installation and apply an integrated, relevant threat picture. Using
                         common baselines would encourage comparable results from different
                         groups and minimize duplication and repetition.


                                                   Impact
                         Inadequate program structure resulted in inefficient application of
                         resources, gaps in analysis, and unnecessary disruption at installations.
                         Responsible offices need to retain some control of dedicated resources.
                         However, fragmented protection and assurance efforts did not facilitate the
                         application of a strategic vision that balanced all areas of program
                         responsibility. Disjointed efforts led to insufficient review of


                                                           20
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                           Product 4 of 5

A Crystal Focus Review



                         nonwarfighting assets under DoD responsibility and potential gaps in the
                         analysis of national level assets and DoD-wide systems. Finally, the lack
                         of a single program office or activity responsible for establishing standards
                         and coordinating worldwide assessments created duplication and the
                         perception of conflicts at installations. Installation representatives stated
                         they received multiple assessments, often reviewing the same functional
                         areas and systems, with many assessments producing repeat findings and
                         inconsistent results (same system or function, different findings).
                         Assigning a field activity to coordinate and track various protection and
                         assurance efforts would permit more efficient execution of protection and
                         assurance programs.


                                            Recommendations
                         1. We recommended the Assistant Secretary of Defense for Homeland
                         Defense should establish a field activity responsible for implementing and
                         monitoring Department protection and assurance programs. The field
                         activity should have the following primary responsibilities:
                                a. develop, validate, and accredit assessment and training
                         standards for assessors;
                                b. standardize, consolidate, and archive facility infrastructure and
                         vulnerability assessment data;
                                c. identify protection and assurance issues with broad impacts
                         across nonwarfighting assets or DoD-wide applicability; and
                                d. obtain, integrate, and share relevant threat data with assessing
                         organizations.
                         2. The Assistant Secretary of Defense for Homeland Defense should
                         publish policy that assigns responsibility to:
                                a. conduct Defense Critical Infrastructure Protection program
                         vulnerability assessments,
                                  b. standardize definitions and criteria for determining asset
                         criticality; and
                                c. develop quantifiable program metrics.




                                                           21
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                         Product 5 of 5

A Crystal Focus Review



            Issue 5. Program Funding
                         Defense CIP planning and programming was inadequate to reduce critical
                         vulnerabilities.


                                                Discussion
                         The realignment of Defense CIP oversight to the ASD(HD) did not
                         resolve issues relating to programmatic funding. Officials responsible for
                         implementing Defense CIP programs at command levels cited the lack of
                         established policy addressing program and mitigation funding as a
                         significant concern.
                         In 2002, the Defense Science Board Summer Study on Special Operations
                         and Joint Forces in Support of Countering Terrorism recommended an
                         “increase tenfold (over three years) [of] the people and resources devoted
                         to assessing vulnerabilities of our DoD force protection capabilities and
                         critical infrastructure.” In the report, the Defense Science Board estimated
                         assessment costs in excess of $100 million, and further estimated $150
                         million yearly requirement to redress vulnerabilities. The report also
                         recommended that DoD establish a separate funding line for assessment
                         and mitigation funding.
                         Prior to FY 2005, Defense CIP program funding was split between the
                         ASD(HD) and the Joint Program Office (later the Defense Program
                         Office) for Mission Assurance under the Department of the Navy. Budget
                         authority for the FY 2005 Defense CIP program was consolidated under
                         the ASD(HD) in two program elements: OSD Operations and
                         Maintenance ($18 million), and CIP Research, Development, Testing,
                         Evaluation ($22 million). Program officials stated that their priority for
                         FY 2005 was the establishment of Defense CIP offices in combatant
                         commands and Defense sectors, and that an additional $9 million was
                         potentially available. However, budgeted amounts were well short of
                         Defense Science Board recommendations.
                         Commands expressed frustration that Defense CIP emphasized the
                         assessment concept without the concomitant emphasis on mitigating the
                         vulnerabilities the assessments identified. Command and installation
                         requests for Defense CIP mitigation funds competed with all other
                         requirements through the regular Planning, Programming, Budgeting, and
                         Execution (PPBE) process. As of February 2005, the Office of the
                         ASD(HD) was not involved in mitigation funding or the disbursement of
                         funds for that purpose, but representatives anticipated an increased role
                         beginning with the FY 2007 budget.


                                                          22
     Evaluation of Defense Installation Vulnerability Assessments
                                                                                           Product 5 of 5

A Crystal Focus Review



                         The Combating Terrorism Readiness Initiatives Fund of the Antiterrorism
                         program allows the Joint Staff to fund force protection mitigation against
                         emerging threats. This program provides an example of efficient targeting
                         of funds to prioritized projects. As of February 2005, the Defense CIP
                         program had no comparable process, and commanders were not afforded
                         access to Combating Terrorism Readiness Initiatives Funds to mitigate
                         vulnerabilities unique to Defense CIP. Command representatives with
                         responsibility for Defense CIP stated that programmatic inclusion in the
                         PPBE system was necessary for continued program development.


                                                   Impact
                         A lack of stable funding for the Defense CIP program contributed to
                         problems with program implementation throughout the combatant
                         commands and Defense sectors. It was detrimental to long-term planning
                         for vulnerability assessments. In addition, insufficient resources for
                         mitigation of identified vulnerabilities led to frustration at installations.
                         Defense CIP assessments highlighted problems, making commanders
                         aware of weaknesses without providing a ready means for relief.
                         Decentralized funding without centralized prioritization and oversight
                         discouraged effective mitigation efforts. Determining which assets were
                         critical depended on mission requirements that varied with level of
                         command. Thus, a mitigation effort to protect an asset critical to a
                         combatant commander could receive a low priority from an installation
                         commander. Vulnerabilities that remained uncorrected increased the risk
                         to mission assurance.


                                            Recommendations
                         We recommended the Assistant Secretary of Defense for Homeland
                         Defense should:
                            1. Establish the Critical Infrastructure Protection program in the
                               planning, programming, budgeting, and execution system and
                               control and coordinate program implementation funding.
                            2. Advocate for mitigation funding from a consolidated, prioritized
                               database of risk-based vulnerabilities identified through a
                               coordinated assessment process.




                                                           23
Evaluation Response to Management
Comments
     ASD(HD) concurred with the majority of our recommendations. We discuss specific
     instances of disagreement and potential impacts below. The following is a summary of
     the management comments and the OIG response. Full management comments can be
     found in Appendix B.

Issue 1. Definition Changes
     ASD(HD) disagreed with our recommendation to shorten mission assurance to assurance
     and force protection to protection, but agreed with the need to include program
     definitions in the Joint Dictionary of Military and Associated Terms. The intent of the
     recommendation was to simplify and clarify fundamental concepts used to assign
     responsibility, establish policy, and define requirements. Management choosing not to
     support the change had no substantial impact on the Defense CIP program.

Issue 2. Program Responsibilities
     ASD(HD) supported our recommendation to organize protection and assurance concepts
     under a common overarching concept. However, management chose to use the term
     preparedness instead of readiness. We proposed readiness specifically because it
     represented the military term best matching preparedness. Management’s choice of
     preparedness, the term used in national policy, is acceptable. Also, ASD(HD) did not
     agree with our recommendation to divide responsibility for protection and assurance
     policy based on geographic areas of responsibility. We concur with management’s
     analysis. The Under Secretary of Defense for Policy adjusted responsibilities between
     ASD(HD) and the Assistant Secretary of Defense for Special Operations and Low-
     Intensity Conflict. However, officials need to codify their agreements in policy.

Issue 3. Assessment Standards
     ASD(HD) disagreed with our recommendation to integrate Defense CIP assessments with
     Joint Staff Integrated Vulnerability Assessments. We concur with their analysis, which is
     based on a series of jointly conducted pilot assessments. Ensuring effective and
     comprehensive CIP assessments takes precedence over efficiency gains through
     integration with existing assessment programs.




                                            24
Progress Review
     We conducted a progress review from October through November 2005 to ascertain
     significant program changes and determine the impacts of our recommendations. Since
     our briefing to the ASD(HD) in February 2005, the office of the ASD(HD) further
     developed and improved many aspects of the Defense CIP program. The ASD(HD)
     published two important documents: “Strategy for Homeland Defense and Civil
     Support,” June 2005, and DoD Directive 3020.40, “Defense Critical Infrastructure
     Program (DCIP),” August 19, 2005.

Results
     As of November 2005, the Office of the Assistant Secretary of Defense for Homeland
     Defense had improved many aspects of the Defense Critical Infrastructure Protection
     program. They published program policy, developed program standards, took steps to
     establish a Defense Field Agency, and improved controls for program funding. Much
     remains to be done as the program matures and continues to change in response to current
     events. The remaining paragraphs of this section document executed and planned actions
     and events organized to match our observations and recommendations.

Issue 1. Definitions
     The Joint Staff J3, Deputy Director for Antiterrorism and Homeland Defense proposed
     changing the definition of force protection to include all hazards, in line with our
     recommendation. The Director, Defense CIP appropriately amended the definition of
     “mission assurance” and included it, along with other definitions, in DoD Directive
     3020.40. As of November 2005, the definitions contained in DoD Directive 3020.40
     were not included in Joint Publication 1-02, “The DoD Dictionary of Military and
     Associated Terms,” (JP 1-02). Defense CIP officials agreed that the definitions should be
     included in JP 1-02 and that they would send the new definitions to the appropriate office
     in the Joint Staff.

Issue 2. Program Responsibilities
     Prior to our review, program officials disagreed about primacy between the concepts of
     force protection and mission assurance. Antiterrorism program officials endorsed
     mission assurance as subordinate to force protection, while Defense CIP officials
     supported the opposite. ASD(HD) officials stated that our recommendation of equal
     importance under readiness generated positive discussion and was partially adopted. As
     of November 2005, Defense CIP program officials stated that they considered
     preparedness as the concept overarching mission assurance and force protection.
     However, representatives from the Joint Staff considered mission assurance an end state
     to be achieved through force protection, continuity of operations, and critical
     infrastructure protection. The lack of agreement demonstrates a need for additional work
     to unify the theory behind the programs.



                                             25
    Responsibility for programs, including Defense CIP, Information Assurance,
    Antiterrorism, Physical Security, and others, remained spread across multiple offices in
    the Office of the Secretary of Defense. Another remaining concern was the lack of an
    individual with assigned responsibility for the overall mission assurance and force
    protection constructs. However, acceptance of mission assurance as a complementary
    concept to force protection was increasing. Mission assurance was defined in DoD
    Directive 3020.40, stated as 1 of 12 objectives of the Strategy for Homeland Defense and
    Civil Support, and included as an action item in the Acting Deputy Secretary of Defense
    memorandum, “Implementation of the Strategy for Homeland Defense and Civil
    Support,” dated June 24, 2005.
    Based on the stated mission of the ASD(HD), we recommended a geographic division of
    program responsibilities. The Director, Defense CIP believed that program
    responsibilities were better allocated by function than by geography due to the seamless
    nature of networks and the idea that capabilities should not be bounded by geography.
    According to ASD(HD) officials, the limitations on military responses to Hurricane
    Katrina coupled with the military’s response to the earthquake disaster in Karachi,
    Pakistan have raised questions about expanding the DoD’s civil support role. These
    missions imply changing responsibilities for the ASD(HD) and renders our
    recommendation as stated inapplicable. As of November 2005, DoD Directive 5111.13,
    “Assistant Secretary of Defense for Homeland Defense,” was not published. However,
    senior officials continued to realign program responsibilities within the Office of the
    Under Secretary of Defense for Policy, attempting to reduce gaps and overlaps. The
    Under Secretary of Defense for Policy should clearly divide responsibilities between the
    ASD(HD) and the Assistant Secretary of Defense for Special Operations and Low-
    Intensity Conflict in their charter directives.

Issue 3. Assessment Standards
    All parties interviewed acknowledged the need for consistent standards. Defense CIP
    officials explained that they used the results of two initiatives to refine proposed
    standards. Representatives from the program office conducted a series of six pilot
    assessments in conjunction with Joint Staff Integrated Vulnerability Assessments
    (JSIVAs) performed by the Defense Threat Reduction Agency. They also worked with
    the Joint Staff to create a Defense CIP module used by assessors. Defense CIP program
    officials concluded from the second effort that the mission assurance and all-hazards
    focus of Defense CIP will likely preclude full integration into the force protection and
    antiterrorism JSIVA. In addition, the JSIVA remained focused on active duty
    warfighting assets. These conclusions reinforce our recommendations.
    Defense CIP program officials stated they anticipated signature of interim guidance by
    the ASD(HD) in December 2005, with publication of a DoD Instruction within 180 days.
    The interim guidance document combined basic threat, vulnerability, and criticality
    standards into one document, applicable to all assets critical to DoD missions.
    Representatives from both the Joint Staff and DCMA stressed the importance of finalized
    standards for continued program progress.
    Our review identified a lack of program emphasis on DoD nonwarfighting, National
    Guard, and non-DoD assets deemed critical to DoD missions. The National Guard


                                            26
    conducted JSIVAs of Guard-owned assets by using the Defense CIP module, and
    according to the Defense CIP Deputy Director for Operations, was prepared to
    incorporate new Defense CIP standards. The Defense Contract Management Agency, as
    the sector lead for the Defense Industrial Base, had several ongoing initiatives. It
    developed and used three Defense CIP related models: criticality determination, asset
    prioritization, and the risk of industrial failure. DCMA also drafted a Memorandum of
    Agreement to conduct Defense CIP assessments of non-DoD critical assets in the United
    States. As part of the non-DoD asset assessment effort, ASD(HD) worked with the
    National Guard to complete interstate compacts allowing trained teams to perform work
    outside of their home States. All responsible parties demonstrated significant progress,
    but non-DoD critical assets located outside the United States remained an issue.

Issue 4. Program Roles
    The Principal Deputy Under Secretary of Defense for Policy approved the establishment
    of a field activity that will combine program management for Continuity of Operations,
    Continuity of Government, and Defense CIP. ASD(HD) planned to provide the field
    activity with authorization for 90 full-time equivalents: 60 for Continuity of Operations
    and Continuity of Government, and 30 for Defense CIP. It planned to staff the
    authorizations through transfer of 60 spaces from the Defense Logistics Agency and 30
    spaces from the Defense Program Office for Mission Assurance. The field activity will
    count against the Washington Headquarters Services staffing allotment. The ASD(HD)
    Comptroller verified that he was programming for the field activity. This action is a good
    first step toward consolidating scattered mission assurance and force protection program
    efforts.

Issue 5. Program Funding
    ASD(HD) actively pursued program implementation funding and established controls for
    its use. Defense CIP program funding for FYs 2004 through 2007 was allocated from the
    Office of the Comptroller to the ASD(HD) within the Program Operating Memorandum
    in a discrete program element. ASD(HD) planned to directly control and suballocate
    program budget authority for FYs 2006 and 2007. For FY 2006, the ASD(HD)
    Comptroller provided the Joint Staff, Defense sectors, and their own staff element with
    budget targets, and established a prioritized unfunded requirements list based on
    submissions. As of November 2005, they were prepared to write the program statement
    of work following congressional approval of the authorization bill.
    ASD(HD) planned to decentralize Defense CIP execution to the Services while retaining
    advocacy of the Defense CIP program element. ASD(HD) stated that starting with the
    FY 2008 budget, it would require Service Program Element Managers to ensure funds are
    budgeted and executed to satisfy Defense CIP requirements outlined in DoD Directive
    3020.40. ASD(HD) planned to distribute approximately 60 percent of the Defense CIP
    funding to combatant commands and Services and maintain control of 30 to 40 percent
    for running the field activity and 10 percent for new initiatives. ASD(HD) understood its
    responsibility for ensuring the Services adequately fund the program element.




                                            27
Defense CIP stakeholders within DoD provided input and were kept informed of fiscal
decisions through the governance council. The primary charter of the council was to
determine program funding priorities. The council comprised 10 individuals, as shown in
Table 2. The Joint Staff J34              Table 2. Defense CIP Governance Council

representative stated that he acted as an  1          Director, Defense CIP - USD(P)
advocate for the combatant commands        2          Principal   Staff Assistant - USD(AT&L)
                                           3          Principal Staff Assistant - USD(I)
and Services.                              4          Principal Staff Assistant - USD(C)/CFO
Mitigating identified vulnerabilities       5      Principal Staff Assistant - USD(P&R)
remained an installation or Service issue.  6      JCS - J34
                                            7      Mil Dep Representative - Army
ASD(HD) representatives planned to          8      Mil Dep Representative - Navy
oversee the prioritization and tracking of 9       Mil Dep Representative - Air Force
Defense CIP requirements through Joint      10     DCMA - DIB Defense Sector Rep
Monthly Reviews and Joint Quarterly
Reviews. ASD(HD) officials decided not to establish a Defense CIP fund for mitigation
similar to the antiterrorism program’s Combating Terrorism Readiness Initiatives Fund.
They concluded that consolidating mitigation funds outside the Services would result in
the Services reallocating an equivalent amount away from mitigation during their budget
process.




                                         28
Appendix A – Methodology
Crystal Focus Process
     Crystal Focus is an independent and objective inspection or evaluation of a key DoD-
     wide program or process. The Crystal Focus process provides a transparent yet focused
     evaluation of DoD issues. Normally, senior leadership requests these evaluations. We
     seek requestor input to develop objectives and to tailor product formats to best convey
     our findings. Crystal Focus products highlight the most significant issues and provide
     timely recommendations for senior leadership action. We conduct the reviews in
     accordance with criteria in the “Quality Standards for Inspections” published by the
     President’s Council on Integrity and Efficiency in January 2005. The project team
     performs follow-up on all recommendations resulting from a Crystal Focus project,
     normally 12 and 18 months after the project is completed. Prior to publishing the report,
     the Crystal Focus team briefs the results, observations, and recommendations to senior
     officials of the DoD Office of the Inspector General (IG); DoD senior management; the
     requestor of the review, and appropriate program managers. We provide program
     managers with the opportunity for formal comment and include their verbatim comments
     in the final report.

Scope
     We reviewed the Defense CIP program. Specifically, we evaluated policy, organization,
     roles and responsibilities, and funding from two broad perspectives: (1) the effectiveness
     of program policy and structure, and (2) the value and impact of vulnerability
     assessments on installations.
     We reviewed program policy and organization of the program at ASD(HD), and the
     impacts of policy decisions with the Office of the Assistant Secretary of Defense for
     Special Operations and Low-Intensity Conflict. We evaluated program roles,
     responsibilities, and funding in the Office of the ASD(HD), the Defense Program Office
     for Mission Assurance, the Joint Staff, the Defense Threat Reduction Agency, and the
     Defense Contract Management Agency. We also reviewed the program impact, funding,
     and structure at U.S. Northern Command, U.S. European Command, and U.S. Pacific
     Command.
     We performed this evaluation from June 2004 through November 2005, in accordance
     with the standards established by the President’s Council on Integrity and Efficiency in
     the publication “Quality Standards for Inspections,” March 1993 and the subsequent
     January 2005 update.

Limitations
     We limited our review in three significant aspects. First, the ASD(HD) defined Defense
     Critical Infrastructure as “DoD and non-DoD cyber and physical assets and associated
     infrastructure essential to project and support military forces worldwide.” We did not
     evaluate cyber security policies for electronic network attack; we limited our review to


                                             29
    the physical aspects of network protection. Second, we did not contact nongovernmental
    organizations and contractors that own Defense Industrial Base assets identified as
    critical, due to time and resource constraints. Finally, we limited our evaluation to the
    Office of the Secretary of Defense, the Joint Staff, Unified Commands, and Defense
    Agencies because of limited program maturity and undefined impact on installations at
    the time of the review.

Work Performed
    We conducted the evaluation as an early implementation review, with the goal of
    identifying vulnerabilities and successes and providing recommendations for
    improvement to a developing program. We focused on policy development, program
    organization, and implementation at higher headquarters. From June 2004 through
    February 2005, the team performed the following steps.
       • We reviewed public law and Executive and Defense Department policy,
       regulations, and directives governing the Defense CIP program.
       • We reviewed relevant reviews, audits, evaluations, inspections, and studies from
       the past 5 years associated with the program. Sources used included the Government
       Accountability Office, the Defense Science Board, and the DoD Inspector General.
       • We conducted interviews with senior OSD and program officials and visited the
       following organizations:
           Assistant Secretary of Defense for Homeland Defense
                Defense Program Office for Mission Assurance
                Critical Infrastructure Program Integration Staff
           Assistant Secretary of Defense for Special Operations and Low-Intensity Conflict
           The Joint Staff
                Combating Terrorism Directorate (J34)
                Strategy and Policy Directorate (J5)
           U.S. Northern Command
           U.S. Pacific Command
           U.S. European Command
           Defense Threat Reduction Agency
           Defense Contract Management Agency
       •   We analyzed current and draft DoD policy and guidance.
       • We discussed our results with program management prior to briefing our
       conclusions to the ASD(HD) in February 2005. We subsequently provided a series of
       “Observations” documenting the details and logic supporting our conclusions.
    In October and November 2005, we conducted a follow-on review to document program
    improvement and determine outcomes based on our recommendations. The results of
    this review are shown on pages 24 through 27.




                                            30
Appendix B – Briefing to the Assistant
Secretary of Defense for Homeland Defense
                                       Evaluation of
                               Defense Installation
                         Vulnerability Assessments
                                        Project D2004-DIP0E2-0157




 Office of the Inspector General, Department of Defense
                 Inspections and Policy


  Inspections & Evaluations Directorate


                         Brief to
                Hon. Paul McHale
             Assistant Secretary of Defense
                 for Homeland Defense
                    February 17, 2005




                 George Marquardt
                    www.dodig.osd.mil



 2/17/2005                                                     1




                               31
                      CIP Related Policy
                     Response to GWOT
          GLOBAL WAR ON TERRORISM (GWOT)
  Early events such as the Khobar Towers and USS Cole
  bombings generated minor changes to organization and
  doctrine. The attacks of Sep 2001 shifted the focus to the
  Homeland and caused significant changes.

                            NATIONAL
  Oct 2001 – EO13231 “Critical Infrastructure in the
  Information Age”
  Oct 2001 - PL 107-56 US Patriot Act (includes the Critical
  Infrastructure Protection Act, 42 USC 5195c)
  Nov 2002 - PL 107-296 Homeland Security Act
  (established the Department of Homeland Security)
  Feb 2003 - “National Strategy for the Physical Protection
  of Critical Infrastructure and Key Assets”
  Dec 2003 – HSPD-7 “Critical Infrastructure Identification,
  Prioritization, and Protection” (one of a series of 12 policy
  directives published between Oct 2001 – Aug 2004)

               DEPARTMENT OF DEFENSE
  Oct 2002 – Change to Unified Command Plan (established
  NORTHCOM)
  Feb 2003 – Office of the Assistant Secretary of Defense
  for Homeland Defense established
2/17/2005                                                         2




                              32
                                 Doctrinal Construct

                           NATIONAL
  The goal of the program is NATIONAL PREPAREDNESS,
  where “all-hazards preparedness” is defined as the
  existence of plans, procedures, policies, training, and
  equipment necessary at the Federal, State, and local level
  to maximize the ability to prevent, respond to, and recover
  from domestic terrorist attacks, major disasters, and other
  emergencies.
  (Homeland Security Presidential Directive 8, “National Preparedness,” December 17,
  2003).


                  DEPARTMENT OF DEFENSE
  The defense equivalent is READINESS, defined as the
  ability of US military forces to fight and meet the demands
  of the national military strategy. It is the synthesis of two
  distinct but interrelated levels:
  UNIT READINESS is the ability to provide Combatant
  Commanders with units capable of delivering designed
  outputs to execute assigned missions.
  JOINT READINESS is the Combatant Commanders’
  ability to integrate and synchronize forces to execute
  assigned missions.
  (Definition from Joint Publication 1-02, “The DoD Dictionary of Military and Associated
  Terms,” as of February 2005)


2/17/2005                                                                                   3




                                           33
                                   DoD Doctrinal
                                      Construct
  UNIT READINESS is a commander’s responsibility and a
  Service-centric mission. One of the activities that allow
  Services to ensure readiness is (Force) PROTECTION.

  (Force) PROTECTION is action taken to prevent or
  mitigate hostile actions against DoD personnel,
  resources, facilities, and critical information. This does
  not include actions to defeat an enemy or protect against
  accidents, weather, or disease (JP 1-02).

  As defined, PROTECTION is primarily a defensive
  activity, applicable only to DoD assets, and limited to
  human threats.

  JOINT READINESS is primarily a joint mission. One of
  the activities that allow Combatant Commanders to
  ensure readiness is (Mission) ASSURANCE.

  (Mission) ASSURANCE is a process to ensure that
  assigned tasks or duties can be performed in accordance
  with the intended purpose or plan (DoDD 3020.ff draft).

  As defined, ASSURANCE is an external activity,
  applicable to any resource potentially impacting planned
  missions, and encompassing all hazards.

2/17/2005                                                      4




                              34
                              DoD Organization

  Program responsibilities associated with PROTECTION
  and ASSURANCE are spread across multiple Under,
  Deputy, and Assistant Secretaries.
  AT                ASD(SO/LIC)                DoDD 2000.12
  CBRNE             USD(AT&L)                  DoDI 6055.x 1
  COOP/COG            USD(P)                   DoDD 3020.26
  CIP                ASD(HD)                   DoDD 5160.54 2
  IA                 ASD(NII)                  DoDD 8500.1
  Installation Prep ASD(SO/LIC)                DoDI 2000.18 3
  Physical Security   USD(I)                   DoDD 5200.8
  1  ATSD(NCB) has primary responsibility for CBN (DoDD 5134.8). Various
  Instructions in the 6055 series for Radiological and High Explosives.
   2 Draft DoDD 3020.ff developed by ASD(HD).

   3 DoDI 2000.18 established guidelines for CBRNE emergency response.

  However, this may be outside ASD(SO/LIC) charter responsibilities (DoDD
  5111.10).


  OBSERVATION: Because doctrine and organization
  changes necessitated by the GWOT are incomplete, DoD
  PROTECTION and ASSURANCE concepts are disjointed
  and associated programs are poorly coordinated,
  resulting in inefficient implementation and less than
  optimal funding.

2/17/2005                                                                   5




                                   35
                                    Impact on CIP

  The evolution of doctrine and the failure to update
  definitions and organizational responsibilities result in five
  points of programmatic stress for the Defense Critical
  Infrastructure Program:
              Asset Location - CONUS / OCONUS
               Asset Ownership - DoD / Non-DoD
    Program Nexus – COCOMS / Service / Defense Sectors
       Program Participation – Title 5 / Title 10 / Title 32
           Threats Addressed - Terrorism / All-Hazard

            DOD RESPONSIBILITIES BY LOCATION




2/17/2005                                                          6




                               36
                           Desired Endstate

  PROGRAM GOALS (DoDD 3020.ff - draft) :
  Defense Critical Infrastructure is available as required.
  The identification, prioritization, assessment, and
  assurance of Defense Critical Infrastructure is managed
  as a comprehensive program.
  Vulnerabilities found in Defense Critical Infrastructure are
  remediated or mitigated based on risk.
  DCIP will complement other DoD programs and efforts

  MANAGEMENT ACTIONS: To effectively accomplish CIP
  program goals, management must ensure that:
  1. Concepts are tightly defined and integrate with broader
  governing doctrine.
  2. Program responsibilities are established in policy, and
  existing policy and authority is modified as necessary.
  3. Priority for program efforts build on existing programs
  (fill in gaps) and minimize duplication of effort (overlaps).
  4. Responsibilities are assigned within the program to
  reflect program focus and achieve program goals.
  5. Stakeholders support or at a minimum acquiesce to the
  program philosophy and goals.
  6. A mechanism is developed to ensure identified
  vulnerabilities receive sufficient consideration for funding.
2/17/2005                                                        7




                              37
                                  Actions Taken

  1. Concepts
     a. ensured program inclusion in ASD(HD) strategy and
  drafted program integrated risk management strategy.
     b. conducted serious efforts toward establishing
  common program definitions and strategic concepts.

  2. Policy:
     a. worked toward publication of DoDD 5111.13.
     b. DoDD 3020.ff in final coordination at USD(P).
     c. pursued reorganization of USD(P) responsibilities.

  3. Focus - recognized opportunity for and pursued
  systemic solutions, conducted a gap analysis, and
  remained sensitive to assessment impacts on commands.

  4. Responsibilities:
     a. increased effectiveness of DoD CIP organization.
     b. developed methodology for Mission Area Analysis.
     c. recognized issues with DPO-MA responsibilities.

  5. Stakeholders - included DoD players through routine
  coordination and expanded CIPIS, and recognized and
  assigned DIB responsibilities

  6. Funding – pursued current year program funding,
  attempted to ensure stable funding over the POM.

2/17/2005                                                    8




                             38
                      Recommendations

  1. Change definitions:
     a. delete “Force” from “Force Protection” and include
  “all-hazards” in JP 1-02.
     b. add “Assurance” to JP 1-02.
     c. change assessment eligible installations in DoDI
  2000.16 to include DoD assets deemed “critical” by
  Combatant Commanders IAW CIP policy and standards.
     d. delete “overarching DoD framework” from “Mission
  Assurance” in DoDD 3020.ff and include elements from
  DoDD 5160.54 (Critical Asset Assurance Program, 1998).
  2. Assign and modify program responsibilities:
      a. organize all PROTECTION and ASSURANCE
  activities under a “readiness” (preparedness) umbrella.
      b. increase efforts concerning non-DoD assets and
  adjust the Defense CIP program focus accordingly
  (requires a change to DoDD 3020.ff, para. 3.1 and 4.1).
      c. divide primacy for policy for PROTECTION and
  ASSURANCE programs geographically –
         1. CONUS and the approaches (suggest ASD(HD) –
  aligns with “charter” responsibilities).
         2. OCONUS (suggest ASD(SO/LIC) - requires
  modification of DoDD 5111.10).
      d. publish ASD(HD) charter (DoDD 5111.13).

2/17/2005                                                9




                            39
                         Recommendations

  3. Develop DCIP as a complementary program that fills
  gaps and minimizes duplication:
      a. complete CIP assessment standards for non-DoD
  assets and unique CIP standards for DoD assets.
      b. develop CIP assessments that review non-DoD
  assets and integrate with DTRA-JSIVA for DoD assets.
      c. coordinate and fund “expert type” assessments for
  vital strategic DoD and non-DoD national assets.
  4. Establish and modify responsibilities in the program:
      a. develop desired outcomes and quantifiable metrics
      b. develop and adopt standardized processes for
  determining criticality.
      c. define the program roles that demonstrate DCIP is a
  Defense-wide program (broader than warfighting assets) –
         1. Protection and Assurance Field Activity –
             i. manage development and validation of
  training, assessment, and accreditation standards
             ii. maintain common assessment databases,
  identify, prioritize, and track nonwarfighting assets
         2. DTRA – conduct vulnerability assessments
         3. Joint Staff - coordinate prioritization and funding
  between Combatant Commands and Services
         4. Combatant Commands - determine criticality and
  track and prioritize identified mission-related vulnerabilities
2/17/2005                                                       10




                               40
                        Recommendations

     d. establish policy that allows for adequate sharing and
  standard analysis and integration of threat information.
  5. Continue to address all stakeholder concerns.
  6. Establish CIP as a program in PPBE where ASD(HD):
     a. develops organization and controls funding for
  dedicated program staff and support to stakeholders.
     b. obtains funding for assessments.
     c. advocates for mitigation funding from a centralized,
  prioritized database of risk-based vulnerabilities.

  OVERARCHING RECOMMENDATION:
     Separate CIP program and FSIVA development. Make
  FSIVA part of a larger coordination effort involving multiple
  OSD offices attempting to:
     1. Incorporate and integrate all PROTECTION and
  ASSURANCE assessment standards including DCIP,
  JSIVA, IA, Physical Security, CBRNE, etc. into
  comprehensive modular FSIVA standards.
     2. Conduct coordinated assessments through master
  scheduling including a common operating picture, modular
  FSIVA standards, and data sharing with all concerned
  parties to minimize the impact of multiple assessments on
  commands, installations, and critical non-DoD assets.
2/17/2005                                                     11




                              41
                                     Acronym List

  AT       Anti-Terrorism (Program)
  CBRNE    Chemical, Biological, Radiological, Nuclear, and
           High Explosive (Weapons)
  CIP      Critical Infrastructure Protection
  CIPIS    Critical Infrastructure Protection Integration Staff
  COOP     Continuity of Operations
  COG      Continuity of Government
  DTRA     Defense Threat Reduction Agency
  DCIP     Defense Critical Infrastructure Program
  DPO-MA Defense Program Office – Mission Assurance
  EO       Executive Order
  FSIVA    Full Spectrum Integrated Vulnerability
           Assessment
  GWOT     Global War on Terrorism
  HSPD     Homeland Security Presidential Directive
  IA       Information Assurance
  JSIVA    Joint Staff Integrated Vulnerability Assessment
  PL       Public Law
  Title 5  U.S. Code, Title 5, “Government Organization and
           Employees”
  Title 10 U.S. Code, Title 10, “Armed Forces”
  Title 32 U.S. Code, Title 32, “National Guard”

2/17/2005                                                         12




                              42
Appendix C – Management Comments




                  43
                          CIP Directorate, OASD(HD)
                     Response to DoD IG Issues Related to
       Evaluation of the Defense Critical Infrastructure Program (DCIP)

Issue 1: Definition Changes
Discussion:
   •   DoD(IG) states that the two terms used by DoD to define the primary activities associated
       with Critical Infrastructure Protection, “force protection” and “mission assurance,” do not
       encompass all critical assets and potential threats.
   •   IG states that anti-terrorism policy should require assessments at activities that are
       deemed critical under CIP standards, regardless of the number of personnel impacted in
       order to help integrate activities an mitigate risk.
Recommendations:
   1. Request the Director for Operational Plans and Joint Force Development, Joint Staff,
      amend the term “Force Protection” in JP 1-02 by deleting the word “Force” and including
      an “all hazards” component to ensure consistency with the intent of
      HSPD-8 [Homeland Security Presidential Directive #8].
       Disagree. Force protection is principally concerned with the physical protection of DoD
       personnel, equipment and facilities. While the definition states that force protection
       includes the protection of information, most in the information management community
       agree that information assurance is outside the AOR [Area of Responsibility] of the force
       protection community. Mission assurance is defined broadly enough to address all-
       hazards even though its focus is on assuring critical capabilities.
   2. Amend the term “Mission Assurance” in draft DoDD 3020.ff by deleting the word
      “mission,” and refine the definition to include specific policy considerations addressed in
      DoDD 5160.54.
       Disagree. DEPSECDEF’s [Deputy Secretary of Defense] approval of DoDD 3020.40
       establishes a definition for the term “mission assurance.” DoDD 5160.54 is cancelled.
   3. Request the Director for Operational Plans and Joint Force Development, Joint Staff
      include the revised “assurance” definition in JP 1-02.
       Agree.
   4. ASD (SO/LIC) [Assistant Secretary of Defense for Special Operations and Low-Intensity
      Conflict] should amend DoDI 2000.16, Para E3.1.1.26.7, “Antiterrorism Site Criteria,” to
      allow Combatant Commanders to conduct vulnerability assessments of those DoD assets
      deemed critical under CIP standards.
       Agree.
       [Inspector General Note: We removed this recommendation from the final report.]




                                               44
Issue 2: Program Responsibilities
Discussion:
    •    IG used HSPD-8, National Preparedness to develop recommendations and used the term
         “readiness”. HSPD-8 uses “preparedness” in lieu of “readiness”, defining it as “the
         existence of plans, procedures, policies, training, and equipment necessary at the Federal,
         State, and local level to maximize the ability to prevent, respond to, and recover from
         major events.”
    •    The IG uses the DoD JP 1-02 definition of “readiness”, which is limited to military
         forces, and unit and joint readiness. This definition is different from the one used in the
         National Response Plan.
    •    IG asserts that CIP protection and assurance contribute to “readiness”, but DCIP
         protection and assurance are not limited to military forces’ ability to execute the National
         Military Strategy.
    •    IG cites the JP 1-02 definition for “protection” as derived from a narrower concept of
         force protection.
    •    The JP 1-02 definitions are insufficient and tailored to the originators’ desired contexts
         desired.
Recommendations:
    1. Organize Protection and Assurance programs and initiatives under a common
       overarching concept of all-hazards preparedness.
         Partially Agree. Agree that an overarching concept is needed to clarify responsibilities
         for protection and assurance policy and programs. However, “readiness,” in the context
         of JP 1-02 1 , is insufficient for DCIP and mission assurance because the definition is too
         narrowly circumscribed. In HSPD-7, “preparedness” includes military forces, public and
         private infrastructure as well as plans, procedures, policies, training, and equipment
         needed to prevent, respond to, and recover from major events. In this context,
         preparedness addresses interdependency or resiliency issues.
    2. Complete DoDD 5111.13, amend DoDD 5111.10 to reflect geographic division of
       responsibility for protection and assurance policy and programs between HD [Homeland
       Defense] and SOLIC [Special Operations and Low Intensity Conflict].
         Disagree. HSPD-7, HSPD-8, and the DCIP require policy that acknowledges the
         importance of interdependencies between and among critical infrastructure assets. The
         President’s directives imply that geographic and jurisdictional boundaries are irrelevant
         to critical infrastructures, like transportation, information or energy, which exist across
         such boundaries. The IG use of the term “readiness” with its narrow focus on military


1
  Joint Publication 1-02, “DOD Dictionary of Military and Associated Terms.” The ability of US military forces to
fight and meet the demands of the national military strategy. Readiness is the synthesis of two distinct but
interrelated levels. a. unit readiness--The ability to provide capabilities required by the combatant commanders to
execute their assigned missions. This is derived from the ability of each unit to deliver the outputs for which it was
designed. b. joint readiness--The combatant commander's ability to integrate and synchronize ready combat and
support forces to execute his or her assigned missions. See also military capability; national military strategy.


                                                          45
           forces and Joint/Unit readiness 2 is unsuitable for critical infrastructure policy and program
           responsibilities. Dividing OSD responsibilities within OSD by geography would
           decrease the effectiveness of critical infrastructure efforts.

Issue 3: Assessment Standards
Discussion:
       •   IG report states that “as of February 2005, the Defense Critical Infrastructure Program”
           did not provide sufficient “deployed capabilities”. In addition, prioritization of efforts and
           application of program resources was not optimized to address non-war fighting critical
           assets.
       •   IG report states that the Full Spectrum Integrated Vulnerability Assessment (FSIVA)
           standards document has a number of deficiencies.
       •   IG report states, “Homeland Security Presidential Directive No. 7 explicitly assigns
           responsibility to the DoD for protection of the Defense Industrial Base (DIB).” However,
           HSPD-7 does not state that DoD is responsible for the protection of the DIB. HSPD-7
           correctly assigns DoD responsibility for the DIB as the Sector Specific Agency to
           coordinate infrastructure protection activities for the DIB.
Recommendations:
       1. Complete CIP assessment standards for non-DoD assets and unique CIP standards for
          DoD assets.
           Agree.
       2. Develop CIP assessments that review non-DoD assets and integrate with Defense Threat
          Reduction Agency-Joint Staff Integrated Vulnerability Assessment (DTRA-JSIVA) for
          DoD assets.
           Partially Agree. DTRA-JSIVA assessments support force protection. The standards for
           JSIVAs are mature, but are limited to the physical security of people, facilities and
           equipment within the DoD installation perimeter. DCIP requires assessments to address
           physical, cyber, personnel and procedural considerations. DCIP requires non-DoD-
           owned critical asset assessments to determine the facility or institution economic
           viability, and to identify supply chain relationships.
       3. Coordinate and fund “expert type” assessments for vital strategic DoD and non-DoD
          national assets.
           Agree.
       4. Increase Critical Infrastructure Protection program activities to assure the availability of
          DoD non-war fighting, National Guard, and non-DoD assets critical to DoD missions.
           Agree.

Issue 4: Program Roles
Discussion:

2
    ibid


                                                     46
   •     The Report states that the “Defense Critical Infrastructure Protection (DCIP) program
         organization was inadequate to achieve desired homeland defense strategic objectives.”
   •     The Report states that ASD(HD) responsibilities are limited to U.S. Territories and the
         approaches. DoDD 3020.40 now assigns the global DCIP mission to the ASD(HD). As
         such, the report conflicts with the global infrastructure protection responsibility of the
         Director, CIP. Furthermore, critical infrastructure addresses physical and cyber nodes
         and links in a supply chain of products and services that transcend geographic and
         jurisdictional boundaries.
Recommendations:
   1. The Under Secretary of Defense for Policy should establish a field activity responsible
      for implementing and monitoring Department protection and assurance programs.
         Partially agree. ASD(HD) is considering a broader set of requirements for a Field
         Activity to support the overall HD mission, to include those for implementing and
         monitoring protection and assurance programs.
         Primary responsibilities for the Field Activity would include:
           a. The development, validation, and accreditation of assessment standards and training
              standards for assessors;
           Agree
           b. The standardization, consolidation, and storage of facility infrastructure and
              vulnerability assessment data;
           Agree
           c. The analysis of data and identification of protection and assurance issues with
              impact across non-war fighting assets or DoD wide applicability; and
           Agree
           d. The obtaining, integration, and sharing of relevant threat data with assessing
              organizations.
           Agree
       2. The Assistant Secretary of Defense for Homeland Defense should publish policy that
          assigns responsibility for the:
           a. Conducting of Defense Critical Infrastructure program vulnerability assessments
           Agree
           b. Standardization of definitions and criteria used to determine asset criticality; and
           Agree
           c. Development of quantifiable program metrics.
           Agree

(Issue 5 was not addressed by the DoD IG.)




                                                  47
Issue 6: Funding DCIP in PPBE
Discussion:
   •   The Report states that “DCIP planning and programming was inadequate to reduce
       critical vulnerabilities.” The DCIP concept is that asset owners/operators are responsible
       for resourcing and making changes, to the assets for which they are responsible, to
       include vulnerability mitigation and remediation. The DCIP provides asset owners with
       justification for funding requirements submitted to the PPBE system. Asset
       owners/operators determine which actions are most appropriate to address vulnerabilities.
   •   The Report states that a significant concern is how DCIP programs, at the command
       level, lack established policy addressing program and mitigation funding. DoDD 3020.40
       provides overall program direction and guidance. Asset owners/operators are responsible
       for mitigation and remediation funding.
   •   The Report states that programmatic inclusion in the PPBE system was necessary to
       develop the program. In addition, DoD components must submit funding requests to the
       PPBE system.
   •   The Report states that lack of stable funding was detrimental to long term assessment
       planning. Additionally, installation commanders were frustrated by the insufficient
       resources used to mitigate vulnerabilities. Consistent with DoDD 3020.40, DoD
       components must resource their DCIP activities including component vulnerability
       assessments for identified critical assets.
   •   The Report states that decentralized funding and a lack of centralized priorities or
       oversight discourage mitigation efforts. The Director, CIP is implementing a process to
       prioritize assessments of DoD strategic critical assets. DoD components may fund and
       prioritize DCIP activities within their respective areas of responsibility, consistent with
       the Secretary’s direction and guidance.
Recommendations:
   1. Establish the Critical Infrastructure Protection program in the PPBE system and control
      and coordinate program implementation funding.
       Agree.
   2. Advocate for mitigation funding and a consolidated, prioritized database of risk-based
      vulnerabilities identified through a coordinated assessment process.
       Agree.




                                                48
Appendix D – Acronym List
ASD(HD)   Assistant Secretary of Defense for Homeland Defense
AT        Antiterrorism (Program)
CIP       Critical Infrastructure Protection
CONUS     Continental United States (48 Contiguous States)
DTRA      Defense Threat Reduction Agency
DCIP      Defense Critical Infrastructure Program
DPO-MA    Defense Program Office for Mission Assurance
IG        Inspector General
JP        Joint Publication
JSIVA     Joint Staff Integrated Vulnerability Assessment
OCONUS    Outside the Continental United States
OSD       Office of the Secretary of Defense
PPBE      Planning, Programming, Budgeting, Execution
PDD       Presidential Decision Directive
Y2K       Year 2000




                                          49
This Page Intentionally Left Blank




                50
Appendix E – Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Policy
  Assistant Secretary of Defense for Homeland Defense
  Assistant Secretary of Defense for Special Operations and Low-Intensity Conflict

Department of the Army
Inspector General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Inspector General, Department of the Air Force

Joint Staff and Unified Commands
Director of the Joint Staff

Other Defense Organizations
Defense Contract Management Agency
Defense Threat Reduction Agency

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability, Committee on
  Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform




                                                 51
THE MISSION OF THE OIG DoD

The Office of Inspector General of the Department of Defense was established by
Congress as one of the “independent and objective units [within listed ‘establishments,’
including the Department of Defense] to conduct and supervise audits and investigations
relating to the programs and operations of those establishments.” As the principal
advisor to the Secretary of Defense in all Inspector General matters, the Inspector
General serves as an extension of “the eyes, ears, and conscience” of the Secretary. In
support of the mission of the Department of Defense, the Office of the Inspector General
endeavors to:

         •   “Provide leadership…to promote economy, efficiency and effectiveness;”
         •   Prevent and detect “fraud, waste, and abuse;”
         •   “Provide policy direction for audits and investigations;”
         •   “Provide a means for keeping the [Secretary of Defense] and the Congress
             fully and currently informed about problems and deficiencies;” and
         •   “Give particular regard to the activities of the internal audit, inspection, and
             investigative units of the military departments with a view toward avoiding
             duplication and insuring effective coordination and cooperation.”



TEAM MEMBERS

The Homeland Defense Division, Inspections and Evaluations Directorate, Office of the
Deputy Inspector General for Inspections and Policy, Office of Inspector General for the
Department of Defense prepared this report. Personnel who contributed to the report
were Col Forrest R. Sprester, Division Chief; Mr. George P. Marquardt, Team Leader;
Mr. Joe A. Baker; Lt Col Michael T. Luft; Lt Col John N. Camperlengo; Lt Col Heidie R.
Rothschild; and Maj Chad W. Lusher.



ADDITIONAL REPORT COPIES

Contact us by phone, fax, or e-mail:
 Inspections and Evaluations Directorate, Deputy Inspector General for Inspections and Policy
 COM: 703.604.8772 (DSN 664.8772)
 FAX: 703.604.9769
 E-MAIL: crystalfocus@dodig.mil
